     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242



November 6, 2009


Report Number: A-06-09-00065

Mr. Thomas Suehs
Executive Commissioner
Texas Health and Human Services Commission
4900 North Lamar Boulevard – 7th Floor
Austin, Texas 78751

Dear Mr. Suehs:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Medicaid Payments for Services Claimed To
Have Been Rendered to Deceased Recipients in Texas.” We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414 or contact Michelle Richards, Senior Auditor, at (214) 767-9202 or through
email at Michelle.Richards@oig.hhs.gov. Please refer to report number A-06-09-00065 in all
correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Thomas Suehs


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
   Department of Health and Human Services
               OFFICE OF 

          INSPECTOR GENERAL 





 REVIEW OF MEDICAID PAYMENTS FOR 

  SERVICES CLAIMED TO HAVE BEEN 

RENDERED TO DECEASED RECIPIENTS IN 

              TEXAS 





                          Daniel R. Levinson

                           Inspector General 


                            November 2009

                            A-06-09-00065

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. In Texas, the Health and
Human Services Commission (the State agency) administers the program.

The Social Security Administration (SSA) maintains comprehensive death records by purchasing
death certificate information. This information is available to State and Federal agencies to
assist in preventing payments for services purportedly provided to Medicaid recipients after they
are deceased. The State agency performs monthly reviews of claims and recipient eligibility to
identify and recover these types of payments. The claim reviews exclude claims for which
Medicaid was the secondary payer to Medicare (Medicare crossover claims) and primary care
case management claims.

OBJECTIVE

Our objective was to identify Texas Medicaid payments made to providers for claims with dates
of service that followed recipients’ deaths.

SUMMARY OF FINDINGS

We identified Texas Medicaid payments made to providers for claims with dates of service that
purportedly followed recipients’ deaths. Specifically, for claims with dates of service between
July 1, 2005, and June 30, 2006, the State agency paid a total of $148,598 for 1,370 claims for 84
recipients whose dates of death were reported as having occurred as of June 30, 2005. Of the 84
recipients:

   	 The State agency paid $18,695 ($11,355 Federal share) for 178 claims for 38 recipients
      who were confirmed deceased as of June 30, 2005. Of the 178 claims, 122 were claims
      for Medicare crossover claims and 18 were primary care case management claims. The
      remaining 38 claims were types that were included in the monthly reviews. The State
      agency had not appropriately identified and recovered these potential overpayments
      through its normal review process.

   	 The State agency paid $18,129 for 344 claims for 16 recipients who died after June 30,
      2005. Of the 16 recipients, 11 were alive when the services were performed and 4 were
      deceased after our claims year. For the remaining recipient, there were two claims
      totaling $13 after the date of death. Neither claim was a primary care case management
      or Medicare crossover claim. We did not determine whether the State agency had
      identified and recouped the $13 potential overpayment.

   	 The State agency paid $111,774 for 848 claims for 30 recipients who we could not
      determine to be deceased. Of the 848 claims, 498 were Medicare crossover claims and




                                                i
       41 were primary care case management claims. The remaining 309 claims were types
       that were included in the monthly reviews.

These overpayments occurred because the State agency did not have adequate controls over the
prevention, identification, and recovery of payments for services purportedly provided after
recipients’ deaths and because the monthly reviews did not include primary care case
management or Medicare crossover claims.

RECOMMENDATIONS

We recommend that the State agency:

    	 review the adequacy of the 178 claims totaling $18,695 ($11,355 Federal share) and, for
       those determined to be erroneous, recover the payments and refund the Medicaid
       program;

    	 review claims with dates of service before and after our claims period for additional
       payments for the 38 recipients;

    	 expand the scope of its monthly reviews to include all Medicaid recipients and all claim
       types;

    	 determine whether the claims for the individual who was confirmed deceased after June
       30, 2005, had been identified and recovered; and

    	 work with SSA to determine whether the 30 recipients whose status could not be verified
       are deceased.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our recommendations.

Additionally, the State agency recommended that all references to “managed care claims” be
removed and replaced with "Medicaid claims" to avoid potential confusion. We reviewed
primary care case management claims, which are paid on a fee-for-service basis, rather than
typical managed care claims, which are paid using a traditional capitated payment model.
Therefore, we will replace the term “managed care claims” with “primary care case management
claims” in this report.

The State agency’s comments are included in their entirety as the Appendix.




                                               ii
                                                    TABLE OF CONTENTS 


                                                                                                                                         Page

INTRODUCTION......................................................................................................................1 


     BACKGROUND ...................................................................................................................1


     OBJECTIVE, SCOPE, AND METHODOLOGY ..................................................………...2 

       Objective ..........................................................................................................................2 

       Scope................................................................................................................................2 

       Methodology ....................................................................................................................2 


FINDINGS AND RECOMMENDATIONS ............................................................................3 


     RESULTS OF REVIEW........................................................................................................4 


     CAUSES OF OVERPAYMENTS.........................................................................................5 


     RECOMMENDATIONS.......................................................................................................5                      


     STATE AGENCY COMMENTS..........................................................................................5 


APPENDIX: STATE AGENCY COMMENTS




                                                                      iii
                                        INTRODUCTION 


BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Texas, the Health and Human Services
Commission (the State agency) administers the program.

The Social Security Administration (SSA) maintains comprehensive death records by purchasing
death certificate information from State Governments and obtaining death notifications from
funeral homes and friends and family of the deceased. All reported deaths of people who have
Social Security numbers are routinely added to SSA’s Death Master File. This information is
available to State and Federal agencies to assist in preventing payments for services purportedly
provided to Medicaid recipients after they are deceased.

The State Bureau of Vital Statistics maintains death records for deaths that occur in Texas. The
State agency obtained death information from other State departments or from family members.

From July 2005 through June 2006, the State agency processed more than 42 million Medicaid
claims totaling over $6 billion. The State agency performs monthly reviews of claims and
recipient eligibility to identify and recover Medicaid overpayments for services purportedly
provided after recipients’ deaths. The claim reviews exclude claims for which Medicaid was the
secondary payer to Medicare (Medicare crossover claims) and primary care case management
claims. Several State agency offices are involved in the monthly review process. The State
agency’s Office of Inspector General (OIG), Technology Analysis, Development & Support
office (TADS) begins the process by comparing Social Security numbers listed in the Texas
Medicaid eligibility file that is maintained by the Office of Eligibility Services (OES) with a
cumulative list of the monthly SSA Death Master File updates. TADS shares the results of the
comparison with the OIG, General Investigations office.

TADS also performs monthly claim reviews by cross referencing paid claims with the death
records received from the State Bureau of Vital Statistics. The reviews exclude primary care
case management claims and claims for which Medicaid is the secondary payer to Medicare
(Medicare crossover claims).

Once General Investigations receives the results from TADS, an investigator verifies whether the
recipient has an active case file. If the case is not active and the person on the death match is the
only person listed on the case, then the investigator closes the investigation. If the case is active,
the investigator attempts to verify the death and, based on the results, notifies the OES regional
match coordinator to take the appropriate action.




                                                  1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to identify Texas Medicaid payments made to providers for claims with dates
of service that followed recipients’ deaths.

Scope

We selected Texas Medicaid recipients who were listed as deceased as of June 30, 2005, in the
SSA Death Master File and had payments made on their behalf to providers for claims with dates
of service between July 1, 2005, and June 30, 2006. We identified 1,370 claims totaling
$148,598 for 84 recipients.

We compared the dates of death noted in the Texas Medicaid eligibility file or the State Bureau
of Vital Statistics’ file to SSA’s dates of death to confirm whether the recipients were deceased.
If the date of a recipient’s death that was listed in SSA’s file was the same as the date in one of
the two State files or was different but both were on or before June 30, 2005, then we accepted
the SSA date of death as accurate and determined whether the State agency had already
recovered the amounts paid for claims with dates of service between July 1, 2005, and June 30,
2006. If the date of a recipient’s death that was listed in one of the State’s files was different
from the date in SSA’s file and was after June 30, 2005, we requested and reviewed supporting
documentation from the State and determined whether there were any claims during our claim
year that were for services purportedly provided after the recipient’s death. If we were able to
obtain conclusive evidence of death, such as a death certificate, and the date of death was after
June 30, 2005, then we determined that the SSA date of death was incorrect. If the State had no
evidence proving a recipient’s death, then we set those claims for services aside as inconclusive.

We did not review the overall internal control structure of the State Medicaid program. We
limited our internal control review to obtaining an understanding of the State Medicaid
program’s procedures to identify payments for services claimed to have been provided for
deceased individuals and to recover the overpayments.

We conducted our audit work from May through August 2009.

Methodology

To accomplish our objective, we:

   	 reviewed applicable Medicaid laws and regulations;

   	 reviewed the State agency’s policies and procedures related to death notification and to
      preventing payments or recovering payments for services purportedly provided
      subsequent to the recipients’ death dates;




                                                 2

   	 matched the Texas Medicaid eligibility file to the SSA Death Master File by Social
      Security number, date of birth, and name to identify potentially deceased Texas Medicaid
      recipients;

   	 limited the universe to those recipients who had paid claims from July 1, 2005, to June
      30, 2006;

   	 compared SSA death information to State agency or State Bureau of Vital Statistics data
      to determine whether the SSA date of death was accurate for each recipient;

   	 determined whether the State agency had identified and recovered overpayments for
      recipients who were confirmed deceased as of June 30, 2005, or whether the payments
      remained outstanding; and

   	 coordinated our review with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

We identified Texas Medicaid payments made to providers for claims with dates of service that
purportedly followed recipients’ deaths. Specifically, for claims with dates of service between
July 1, 2005, and June 30, 2006, the State agency paid a total of $148,598 for 1,370 claims for 84
recipients whose dates of death were reported as having occurred as of June 30, 2005. Of the 84
recipients:

   	 The State agency paid $18,695 ($11,355 Federal share) for 178 claims for 38 recipients
      who were confirmed deceased as of June 30, 2005. Of the 178 claims, 122 were
      Medicare crossover claims and 18 were primary care case management claims. The
      remaining 38 claims were types that were included in the monthly reviews. The State
      agency had not appropriately identified and recovered these overpayments through its
      normal review process.

   	 The State agency paid $18,129 for 344 claims for 16 recipients who died after June 30,
      2005. Of the 16 recipients, 11 were alive when the services were performed and 4 were
      deceased after our claims year. For the remaining recipient, there were two claims
      totaling $13 after the date of death. Neither claim was a primary care case management
      or Medicare crossover claim. We did not determine whether the State agency had
      identified and recouped the $13 potential overpayment.




                                                3

   	 The State agency paid $111,774 for 848 claims for 30 recipients who we could not
      determine to be deceased. Of the 848 claims, 498 were Medicare crossover claims and
      41 were primary care case management claims. The remaining 309 claims were types
      that were included in the monthly reviews

These overpayments occurred because the State agency did not have adequate controls over the
prevention, identification, and recovery of payments for services purportedly provided after
recipients’ deaths and because the monthly reviews did not include primary care case
management or Medicare crossover claims.

RESULTS OF REVIEW

Federal regulations (42 CFR § 433.304) state that an overpayment is the amount that a Medicaid
agency pays to a provider in excess of the amount that is allowable for furnished services.
Payments for services claimed to have been rendered after Medicaid recipients’ deaths are
overpayments.

Of the 84 recipients:

	 Thirty-eight recipients were deceased as of June 30, 2005.

   o	 For 34 recipients, SSA’s records had the same dates of death as the State Bureau of Vital
      Statistics records.

   o	 For four recipients, SSA’s dates of death did not match the State Bureau of Vital 

      Statistics dates of death, but both dates were before June 30, 2005. 


   The State agency paid providers $18,695 ($11,355 Federal share) for 178 claims for 38
   recipients after their dates of death. Of the 178 claims, 122 were Medicare crossover claims
   and 18 were primary care case management claims. The remaining 38 claims were types that
   were included in the monthly reviews. The State agency had not appropriately identified and
   recovered these potential overpayments through its normal review process.

	 Sixteen recipients died after June 30, 2005. The State agency paid providers $18,129 for 344
   claims for services provided to the 16 recipients. We confirmed that SSA’s dates of death
   were not correct by reviewing death certificates or other supporting documentation. For the
   12 recipients who died between July 1, 2005, and June 30, 2006, we compared the dates of
   service of the claims to the dates of death and determined that 11 recipients were alive when
   the services were performed and that there were two claims for 1 recipient totaling $13 after
   the date of death. Neither claim was a primary care case management or Medicare crossover
   claim. We did not determine whether the State agency had identified and recouped the $13
   potential overpayment. The four remaining recipients died after June 30, 2006; therefore, we
   were not able to review their claim histories.




                                               4

	 Thirty recipients did not have a date of death noted by the State Bureau of Vital Statistics.
   The State agency’s records did not show dates of death for 24 recipients and showed
   different dates of death from SSA for 6 recipients. We were not able to verify whether these
   recipients were deceased. The State agency paid providers $111,774 for 848 claims for
   services provided to the 30 recipients. Of the 848 claims, 498 were Medicare crossover
   claims and 41 were primary care case management claims. The remaining 309 claims were
   types that were included in the monthly reviews

CAUSES OF OVERPAYMENTS

The overpayments occurred because the State agency did not have adequate controls over the
prevention, identification, and recovery of payments made for services purportedly provided
after recipients’ deaths. Although procedures were in place, they were not successful in
identifying overpayments, partially because the monthly reviews did not include primary care
case management or Medicare crossover claims. We could not determine why TADS did not
identify overpayments for claims that were not primary care case management or Medicare
crossover claims. Additionally, we could not determine whether General Investigations had
investigated the recipients who were deceased.

RECOMMENDATIONS

We recommend that the State agency:

    	 review the adequacy of the 178 claims totaling $18,695 ($11,355 Federal share) and, for
       those determined to be erroneous, recover the payments and refund the Medicaid
       program;

    	 review claims with dates of service before and after our claims period for additional
       payments for the 38 recipients;

    	 expand the scope of its monthly reviews to include all Medicaid recipients and all claim
       types;

    	 determine whether the claims for the individual who was confirmed deceased after June
       30, 2005, had been identified and recovered; and

    	 work with SSA to determine whether the 30 recipients whose status could not be verified
       are deceased.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our recommendations.

Additionally, the State agency recommended that all references to “managed care claims” be
removed and replaced with “Medicaid claims” to avoid potential confusion. We reviewed
primary care case management claims, which are paid on a fee-for-service basis, rather than


                                               5

typical managed care claims, which are paid using a traditional capitated payment model.
Therefore, we will replace the term “managed care claims” with “primary care case management
claims” in the report.

The State agency’s comments are included in their entirety as the Appendix.




                                               6

APPENDIX

                                                                                                                    Page 10f4


                APPENDIX: STATE AGENCY COMMENTS 





                 TEXAS HEALTH AND HUMAN SERVICES COMMISSION



                                                                                                 THOMAS M . SUEHS
                                                                                               EXECU TIVE C OMMI SS IONE R

                                             October 30, 2009



Ms. Patricia Wheeler
Regional Inspector General for Audit Services
Office of Inspector General, Office of Audit Services
1100 Commerce, Room 632
Dallas, Texas 75242

Reference Report Number A-06-09-00065

Dear Ms. Wheeler:

The Texas Health and Human Services Commission (HHSC) received a draft audit report
entitled "Review of Medicaid Payments for Services Claimed to Have Been Rendered to
Deceased Recipients in Texas" from the Department of Health and Human Services Office of
Inspector General. The cover letter, dated September 30, 2009, requested that HHSC provide
written comments, including the status of actions taken or planned in response to the report
recommendations.

The report identified recommendations for HHSC to consider, and address:

• 	 Reviewing the adequacy of claim payments identified by the auditors; and (a) recovering
    from providers, and (b) refunding to the Medicaid program any payments for services
    determined to have been provided after a recipient' s death, including any payments occurring
    outside the scope of the audit.
• 	 Expanding the scope of death match reviews to include all Medicaid recipients and all claim
    types.
• 	 Validating date of death information with the Social Security Administration (SS A) on
    selected recipients identified by the auditors.

Please consider the following clarifications to information provided in the draft report:

   The draft report references "managed care claims" in the ' Background' and ' Summary of
   Findings' on page i and in other sections. However, the auditors did not review what HHSC
   typically refers to as managed care claims - those within a traditional capitated payment
   model. The auditors reviewed traditional Medicaid (Program 100) and Primary Care Case
   Management (Program 200) claims. During the course of the audit, Program 200 claims
          P. O. Box 13247   •   Austin , Texas 78711   •   4900 North Lamar, Austin , Texas   787 5 1
                                                                                                   Page 2 of4




Ms. Patricia Wheeler 

October 30, 2009 

Page 2 



    were at times referred to as "managed care claims," but both Medicaid Program 100 and 200
    claims are paid on a fee-for-service basis. Referring to Program 200 claims as "managed
    care claims" may be misleading to a reader, who could incorrectly interpret the reference to
    mean capitated Medicaid managed care payments. To avoid this potential confus ion, HHSC
    recommends all references to "managed care claims" be removed and replaced with
    "Medicaid claims."

Actions HHSC has completed or plmmed to address the recommendations contained in the report
are described in the management responses below.

DHHS/OIG Recommendation: We recommend that the State agency review the adequacy of
the 1 78 claims totaling $18,695 ($11,355 Federal share) and, for those determined to be
erroneous, recover the payments and refund the Medicaid program.

HHSC Management Response

Actions Planned:

HHSC will conduct an analysis of the 178 claims identified in the audit. Once completed, HHSC
will refund the federal share of claims determined to have been rendered after a recipients' death.

Estimated Completion Date: 	 November 30, 2009

Title of Responsible Person: 	 Deputy Director, Medicaid/CHIP Claims Administrator
                               Operations

DHHS/OIG Recommendation: We recommend that the State agency review claims with dates
ofservice before and after our claims period for additional payment'ifor the 38 recipients.

HHSC Management Response

Actions Planned:

HHSC will conduct a review of claims payments for the 38 recipients with dates of service
before and after the period reviewed by the auditors. Once completed, HIIS C wi II refund the
federal share of any claims for services determined to have been rendered after a recipi ents'
death.

Estimated Completion Date: 	 November 30, 2009

Title of Responsible Person: 	 Director, Technology Analysis, Development and Support,
                               HHSC OIG
                                                                                                     Page 3 of4




Ms. Patricia Wheeler
October 30, 2009
Page 3


DHHS/OIG Recommendation: We recommend that the State agency expand the scope o/its
monthly reviews to include all Medicaid recipients and all claim types.

Management Response

HHSC receives date of death information from the Social Security Administration and the State
Bureau of Vital Statistics, and uses this information to regularly identify and recover Medicaid
payments for services rendered after a recipient's date of death. Additionally, HHSC will
expand the scope of the monthly death matching as outlined below.

Actions Planned:

HHSC will expand the scope of the monthly death match process by: (a) including Medicare
crossover claims and; (b) identifying recipients whose eligibility had been terminated for another
reason before the death match information was received. For those recipients whose eligibility
had been terminated for another reason, a process to update the recipient's status codes and
eligibility end date in the eligibility systems to reflect with matched information will be
implemented. HHSC will use the updated information to identify and recover any Medicaid
payments for services rendered after a recipient's date of death.

In addition, HHSC will ensure staff is aware of the appropriate eligibility system processing
codes used to identify deceased recipients, and will send a policy reminder to staff assigned to
Medicaid for the Elderly and Persons with Disabilities section to use appropriate codes.

These improvements will further strengthen the matching process used to identify and recover
Medicaid payments for services rendered after a recipients' date of death.

Estimated Completion Date:

• 	 November 30, 2009 - Initiate crossover claims matching, identifying recipients with
    telminated eligibility, and send the policy reminder.
• 	 December 31, 2009 - Implement process to update system status codes and enter eligibility
    dates.
• 	 March 3 1, 201 0 - Initiate claim recoveries resulting fro m the expanded matching process.

Titles of Responsible Persons:
• 	 Director, Oeneral Investigations, HHSC 010
• 	 Director, Centralized Operations, OES
• 	 Director, Technology Analysis, Development and Support, HHSC oro

DHHS/OIG Recommendation: We recommend that the State agency determine whether the
claims/i)r the individual who was confirmed deceased a/ier June 30, 2005, had been identified
and recovered.
                                                                                                 Page 4 of4




Ms. Patricia Wheeler
October 30, 2009
Page 4


HHSC Management Response

Actions Planned:

HHSC will review the claims payments identified by the auditors for this recipient and will
refund the federal share of any claims determined to have been rendered after the recipients'
death.

Estimated Completion Date: 	 November 30, 2009

Title of Responsible Person: 	 Director, Technology Analysis, Development and Support,
                               HHSC OIG

DHHS/OIG Recommendation: We recommend that the State agency work with SSA to
determine whether the 30 recipients whose status could not be verified are deceased.

HHSC Management Response

Actions Planned:

HHSC will coordinate with SSA to determine whether the recipients are deceased. Once
completed, HHSC will refund the federal share of any claims for services determined to have
been rendered after a recipient's death.

Estimated Completion Date: 	 November 30, 2009

Title of Responsible Person: 	 Director, General Investigations, HHSC OIG

If you have any questions or require additional information, please contact David M. Griffith,
HHSC Internal Audit Director. Mr. Griffith may be reached by telephone at (512) 424-6998 or
bye-mail atDavid.Griffith@hhsc.state.tx.us.
